APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Fifth Circuit, TNT Crane
& Rigging, Inc. v. Occupational Safety
& Health Rev. Comm’n, No. 19-60745
(Aug. 4, 2020) ............................................... App-1
Appendix B
Decision & Order, Occupational Safety &
Health Review Commission, Sec’y of
Labor v. TNT Crane & Rigging, Inc.,
No. 17-1872 (July 30, 2019) ...................... App-14
Appendix C
Relevant Federal Regulation .................... App-50
29 C.F.R. § 1926.1402 ......................... App-50

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 19-60745
________________
TNT CRANE & RIGGING, INC.,
v.

Petitioner,

OCCUPATIONAL SAFETY AND HEALTH REVIEW
COMMISSION; EUGENE SCALIA, SECRETARY, U.S.
DEPARTMENT OF LABOR,
Respondents.
________________
Filed: Aug. 4, 2020
________________
Before STEWART, CLEMENT, and COSTA,
Circuit Judges.
________________
OPINION
________________
PER CURIAM: *
The
Occupational
Safety
and
Health
Administration (OSHA) issued TNT Crane & Rigging,
Inc. a citation for violating a regulation promulgated
* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

App-2
under the Occupational Safety and Health Act of 1970,
29 U.S.C. §§ 651-78. TNT contested the citation. After
a trial, an administrative law judge affirmed the
citation and the recommended penalty. The
Occupational Safety and Health Review Commission
declined review, which made the administrative law
judge’s decision final. TNT filed a petition for review
in this court. We deny the petition.
I.
The parties agree on all the relevant facts.
Walmart hired Better Built Enterprises as the general
contractor to install new air conditioners on the roof of
its Corpus Christi, Texas store. TNT Crane & Rigging,
Inc. was a subcontractor that provided crane services
for this job. On the second night of the job, TNT’s 265ton crane was loaded with 119,000 pounds of
counterweights, had a “jib” attached—which extended
the crane’s reach—and had its four outriggers halfway
extended onto Walmart’s asphalt parking lot and
concrete sidewalk. The crane manufacturer’s
specifications prohibit using the crane in this
configuration without supporting materials under the
outriggers. TNT’s Standard Operating Procedure for
Cranes similarly requires that these outriggers have
supporting materials under them when the crane is
making lifts: “Steel plates, pads or timber mats shall
be used under the outriggers of all cranes no
exceptions.” But TNT policy also states that a crane
can be used to set its own mats if “the crane is on
stable ground.” These mats help to stabilize the crane
by distributing the weight of the outrigger feet over a
larger surface area. TNT’s crane operator attempted

App-3
to use the crane to lift and set these steel mats under
its own outriggers. That attempt ended poorly.
When the crane operator swung the crane around
to pick up a steel mat, one of the outriggers punctured
the concrete and the crane tipped over. The crane
operator exited the crane and was seriously injured
when the ball of the crane hit him.
OSHA investigated the accident and issued TNT
a citation for a serious violation of the OSHA Ground
Conditions Standard, 29 C.F.R. § 1926.1402(b). The
citation stated: “On or about March 23, 2017, at this
location, the employer did not ensure that equipment
was assembled and/or operated on ground that could
support the mobile crane structure.” This was an
alleged violation of paragraph (b) of the Ground
Conditions Standard, which requires that
[t]he equipment must not be assembled or
used unless ground conditions are firm,
drained, and graded to a sufficient extent so
that, in conjunction (if necessary) with the
use of supporting materials, the equipment
manufacturer’s specifications for adequate
support and degree of level of the equipment
are met. The requirement for the ground to be
drained does not apply to marshes/wetlands.
Id. § 1926.1402(b). OSHA proposed a $12,675 penalty
for the citation. TNT contested the citation and sought
review by the Occupational Safety and Health Review
Commission. See 29 U.S.C. § 659(a).
After a two-day trial before an administrative law
judge, the judge found that TNT failed to provide
adequate support for the crane according to the
manufacturer’s specifications and, therefore, affirmed

App-4
the citation and penalty. See id. § 661(j). TNT
petitioned the Commission for discretionary review,
but the Commission declined review and issued a
Notice of Final Order that made the administrative
law judge’s decision final. See id. TNT now seeks
review of that final order in this court. See id. § 660(a).
II.
The administrative law judge’s decision was the
Commission’s final decision, so that is the decision we
review on appeal. Austin Indus. Specialty Servs., L.P.
v. Occupational Safety & Health Review Comm’n, 765
F.3d 434, 438-39 (5th Cir. 2014) (per curiam). We
accept the administrative law judge’s factual findings
as “conclusive” if they are supported by substantial
evidence. 29 U.S.C. § 660(a). Evidence is “substantial”
if “a reasonable mind might accept [it] as adequate to
support a conclusion.” Consolo v. Fed. Mar. Comm’n,
383 U.S. 607, 620 (1966) (quoting Consol. Edison Co.
of N.Y. v. NLRB, 305 U.S. 197, 229 (1938)). And we
accept that judge’s legal conclusions unless they are
“arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.” 5 U.S.C.
§ 706(2)(A).
III.
A.
The Secretary of Labor has delegated his
authority and responsibility for administering the
Occupational Safety and Health Act of 1970 to the
Assistant Secretary for Occupational Safety and
Health. 77 Fed. Reg. 3912 (Jan. 25, 2012). OSHA is
therefore responsible for conducting investigations
and issuing citations for violations of safety standards
promulgated under the Act. See 29 U.S.C. §§ 657, 658.

App-5
To issue a citation, OSHA “must show by a
preponderance of the evidence: (1) that the cited
standard applies; (2) noncompliance with the cited
standard; (3) access or exposure to the violative
conditions; and (4) that the employer had actual or
constructive knowledge of the conditions through the
exercise of reasonable due diligence.” Sanderson
Farms, Inc. v. Perez, 811 F.3d 730, 735 (5th Cir. 2016).
TNT argues that the administrative law judge erred
in finding that OSHA proved any of these elements.
We disagree.
1.
TNT argues that the administrative law judge’s
finding that 29 C.F.R. § 1926.1402(b) applied was an
abuse of discretion. Under paragraph (b) of that
section, equipment cannot be “assembled or used
unless ground conditions are firm, drained, and
graded to a sufficient extent so that, in conjunction (if
necessary) with the use of supporting materials, the
equipment manufacturer’s specifications for adequate
support and degree of level of the equipment are met.”
29 C.F.R. § 1926.1402(b). Paragraph (c)(1) of that
section requires that the controlling entity “[e]nsure
that ground preparations necessary to meet the
requirements in paragraph (b) of this section are
provided.” Id. § 1926.1402(c)(1).
TNT argues that paragraph (b)’s safety standard
applies only to the controlling entity, Better Built
Enterprises. TNT seems to believe that paragraph
(c)(1) requires that the controlling entity provide the
necessary ground preparations, but paragraph (b)
imposes upon the equipment operator, TNT, no
obligation to use them. That would make paragraph

App-6
(b)’s conditional prohibition against assembling or
using equipment at best toothless and at worst
surplusage. This argument is meritless. Paragraphs
(b) and (c)(1) list distinct violations. Paragraph (b)
prohibits equipment from being assembled or used
unless certain conditions are met. Paragraph (c)(1)
requires that the controlling entity provide necessary
ground
preparations.
And
paragraph
(c)(2)
countenances that the controlling entity in paragraph
(c)(1) might not be the equipment user in paragraph
(b)—paragraph (c)(2) requires the controlling entity to
“[i]nform the user of the equipment and the operator
of the location of hazards beneath the equipment setup area.” Id. § 1926.1402(c)(2). Paragraph (b)
therefore clearly imposes a duty on those who
assemble and use equipment whether they are the
controlling entity or not. TNT was responsible for
assembling and using the crane. Thus, paragraph (b)’s
standard applies to TNT.
2.
TNT argues that the administrative law judge’s
finding that the standard was violated wasn’t
supported by substantial evidence. Paragraph (b)
prohibits the assembly or use of equipment unless
ground conditions, including supporting materials, if
necessary, can support the equipment. Id.
§ 1926.1402(b). Per the crane manufacturer’s
specifications, supporting materials were necessary.
TNT failed to use those materials. As a result, the
administrative law judge found that the ground
conditions did not meet the manufacturer’s
specifications; therefore, TNT violated paragraph (b)’s
standard.

App-7
TNT’s argument that this finding was error is
premised on its interpretation of what constitutes the
“ground conditions.” TNT claims that the “ground
conditions” standard requires only that the ground be
sufficiently firm, drained, and graded. Using the crane
without supporting materials violates a different
standard: 29 C.F.R. § 1926.1404(h)(2). This, TNT
reasons, means that the failure to use supporting
materials is not evidence of a “ground conditions”
violation. As the administrative law judge notes,
however, that section doesn’t apply here.
Section 1926.1404(h)(2) applies to “assembly and
disassembly operations.” See id. § 1926.1404. TNT
admitted that this accident didn’t occur during
assembly. The administrative law judge therefore
correctly rejected TNT’s argument that section
1926.1404(h)(2) applies. Indeed, even if it applied,
TNT fails to show that this standard and paragraph
(b)’s standard are mutually exclusive grounds for a
citation.
Moreover, paragraph (b)’s standard isn’t limited
to only whether the ground is firm, drained, and
graded. TNT claims that failing to use supporting
materials—even when they are necessary to meet the
crane manufacturer’s specifications—isn’t a violation
of the standard. That is, TNT could have met the
manufacturer’s specifications had it used the
supporting materials, so whether TNT used them is
irrelevant for this standard. But as the administrative
law judge correctly pointed out, the standard states
that the “equipment must not be assembled or used
unless ... the equipment manufacturer’s specifications
for adequate support and degree of level of the

App-8
equipment are met.” Id. § 1926.1402(b) (emphasis
added). The administrative law judge therefore
correctly concluded that TNT had to actually meet
these specifications. Because the supporting materials
were necessary to meet the crane manufacturer’s
specifications yet weren’t used—neither of which are
disputed—the administrative law judge’s finding that
this failure violated the standard was supported by
substantial evidence.
3.
TNT argues that the administrative law judge’s
finding that a hazard existed was an abuse of
discretion and wasn’t supported by substantial
evidence. This argument is similarly premised on
TNT’s interpretation of “ground conditions” as
referring only to firmness, drainage, and grade.
Because the administrative law judge’s contrary
interpretation wasn’t error, this argument likewise
fails. OSHA must find that a hazard exists “before
issuing a standard,” so OSHA “is not ordinarily
required to prove the existence of a hazard each time
a standard is enforced.” Sanderson Farms, 811 F.3d at
735. The existence of a hazard is, therefore, “generally
presumed in safety standards unless the regulation
requires [OSHA] to prove it.” Id. The standard here
doesn’t require proof of a hazard. And as already
explained, the administrative law judge didn’t err in
finding a violation. Thus, the administrative law judge
didn’t abuse his discretion, nor was his decision
without support from substantial evidence, by finding
that a hazard was presumed here.

App-9
4.
TNT argues that the administrative law judge’s
finding that TNT had knowledge of the hazard was an
abuse of discretion and wasn’t supported by
substantial evidence. The Act doesn’t impose strict
liability on employers for all of its employees’ acts. See
W.G. Yates & Sons Constr. Co v. Occupational Safety
& Health Review Comm’n, 459 F.3d 604, 606 (5th Cir.
2006). An employer is liable for an employee’s serious
violation of the Act only if the employer knew or
through “the exercise of reasonable diligence” should
have “know[n] of the presence of the violation.” 29
U.S.C. § 666(k). TNT does not argue that the
administrative law judge erred in finding that this
was a serious violation, and no party claims that TNT
had actual knowledge of the violation. Instead, TNT
claims that the crane operator was not a supervisor
and, even if he was, that his knowledge can’t be
imputed to TNT.
Whether someone is a supervisor depends
primarily on the substance of his delegated authority,
not his title. Iowa S. Utils. Co., 5 O.S.H. Cas. (BNA)
1138 (March 15, 1977). The administrative law judge
found that the crane operator was a supervisor
because he was the on-site “competent person” and
was responsible for making sure TNT’s crew worked
safely and conformed with the Act. Competent person
“means one who is capable of identifying existing and
predictable hazards in the surroundings or working
conditions which are unsanitary, hazardous, or
dangerous to employees, and who has authorization to
take prompt corrective measures to eliminate them.”
29 C.F.R. § 1926.1401. The administrative law judge

App-10
noted that the crane operator did a walkthrough with
the general contractor and subcontractors to inspect
where the crane would be set up, supervised the
crane’s assembly, and completed several forms for this
job on TNT’s behalf. Moreover, two employees testified
that the crane operator was the supervisor here: one
stated that TNT tells its employees that, unless
another supervisor is present, the crane operator is
who is in charge of and responsible for the job; the
other stated that he worked under the crane operator,
who controlled everything the night of the accident.
Given the crane operator’s substantive delegated
duties—he was authorized to correct unsafe working
conditions, supervised the crane’s assembly, filled-out
forms on TNT’s behalf, and was recognized by other
employees as being in charge of this job—the
administrative law judge did not err in finding that
the crane operator was a supervisor at the time of the
violation. The remaining issue, then, is whether his
knowledge can be imputed to TNT.
An employer is usually liable for a supervisor’s
actual or constructive knowledge of conduct or of a
condition that violates an OSHA standard. W.G.
Yates, 459 F.3d at 607. But when the violation is the
supervisor’s own misconduct, an employer is liable
only if the violation was foreseeable. Id. at 609. We
have held that at least one way a violation can be
unforeseeable is if the employer’s safety policy,
training, and discipline are sufficient so as to make the
violation unforeseeable. See Horne Plumbing &
Heating Co. v. Occupational Safety & Health Review
Comm’n, 528 F.2d 564, 570-71 (5th Cir. 1976).

App-11
The administrative law judge found that the
crane operator’s actions were foreseeable for two
separate reasons: (1) the rules for using a crane with
supporting materials contradicted each other and
were insufficiently descriptive, and (2) TNT’s policy
for audit and supervision were insufficient to identify
and remedy violations like the one here. We agree that
the first reason was sufficient for finding that the
crane operator’s violation was foreseeable. We
therefore do not reach the second reason.
The administrative law judge correctly pointed
out that TNT’s Standard Operating Procedure for
Cranes has two seemingly contradictory rules. The
first rule states that “[s]teel plates, pads, or timber
mats shall be used under the outriggers of all cranes
no exceptions,” yet the rule immediately after it states
that “[i]n the event that the crane is on stable ground
it is permissible to utilize the crane to place plates and
mats only.” That is, the second rule appears to be an
exception to a rule that explicitly states “no
exceptions.” TNT’s Vice President of Health, Safety,
and Environmental admitted that these rules were
poorly written and attempted to clarify this
contradiction without much success. He stated that
these rules apply to lifting mode and set-up mode,
respectively, but admitted that those are just
descriptions of the work being done, not modes of the
crane. He also claimed that this exception is “moot”
when a crane is loaded with counterweights while
acknowledging that these rules say nothing about the
use of counterweights. And TNT’s policies draw no
such distinction between these “modes.” The
administrative law judge, unsatisfied with the vice
president’s explanation, concluded that, “[i]f the head

App-12
of health and safety was not capable of clearly
explaining the distinction—not to mention he
admitted it was poorly written—it is certainly
foreseeable an employee would have similar
difficulties understanding and implementing the
rule.” Indeed, the crane operator clearly had such
difficulties: he admitted to using the crane multiple
times to set up its own supporting materials in
circumstances similar to those here. Given these
apparently contradictory rules—coupled with the
failure of TNT’s vice president to clearly explain the
contradiction and the crane operator’s admitted past
violations—a reasonable mind might conclude that
the violation here was foreseeable. Thus, the
administrative law judge’s finding was not an abuse of
discretion or without support from substantial
evidence.
B.
TNT’s final argument is that the administrative
law judge’s finding that TNT didn’t establish its
unpreventable-employee-misconduct defense was an
abuse of discretion. This affirmative defense isn’t
found in a statute or regulation; it’s implied “by the
scope of the Act’s prohibitions.” S. Hens, Inc. v.
Occupational Safety & Health Review Comm’n, 930
F.3d 667, 678 (5th Cir. 2019). For this defense, TNT
must show that it (1) has “work rules designed to
prevent
the
violation,”
(2) “has
adequately
communicated these rules to its employees,” (3) has
attempted to discover violations of these rules, and
(4) “has effectively enforced the rules when violations
have been discovered.” W.G. Yates, 459 F.3d at 609
n.7. The administrative law judge rejected this

App-13
argument for the same reason that it found the
violation foreseeable: TNT’s work rules were
inadequate to prevent the violation. Because we find
no error in the administrative law judge’s
foreseeability finding, we likewise find that he didn’t
abuse his discretion in rejecting this defense. See S.
Hens, 930 F.3d at 678 (noting that, because this
defense is implied, the unpreventable-employeemisconduct “inquiry often overlaps considerably with
the main violation inquiry”).
IV.
For the foregoing reasons, we deny TNT’s petition.

App-14
Appendix B
OCCUPATIONAL SAFETY & HEALTH
REVIEW COMMISSION
________________
No. 17-1872
________________
SECRETARY OF LABOR,
v.

Complainant,

TNT CRANE & RIGGING, INC.,
Respondent.
________________
Filed: July 30, 2019
________________
Before: Judge Patrick B. Augustine –
U.S. Administrative Law Judge.
________________
DECISION AND ORDER
________________
I.

Procedural History

On the second night of a two-day project to install
new air conditioning units on top of the Wal-Mart
store, located at 1821 S. Padre Island Dr., in Corpus
Christi, Texas, Respondent’s mobile crane tipped over,
causing severe injuries to the operator. Complainant
dispatched Compliance Safety and Health Officers
(CSHOs) Stephanie Dovalina and Carlos Casas to
inspect the worksite the very next morning. (Tr. 13435). After the inspection, Complainant issued a

App-15
Citation and Notification of Penalty (“Citation”),
which alleges a serious violation of 29 C.F.R.
§ 1926.1402(b) of the Occupational Safety and Health
Act, 29 U.S.C. § 659(c) (Act) and proposed a penalty of
$12,675.00 for Citation 1, Item 1(a). 1 (Ex. C-1 at 6).
Respondent timely contested the Citation, bringing
this matter before the Occupational Safety and Health
Review Commission (“Commission”).
A trial was held on December 3-4, 2018, in
Houston, Texas. The following individuals testified:
(1) Santos Gil, Daytime Superintendent for Better
Built Enterprises, the project’s general contractor;
(2) Marty Campbell, Nighttime Superintendent for
Better Built Enterprises; (3) Raymond Bucher, former
operator/truck driver/rigger for Respondent; (4) CSHO
Stephanie
Dovalina;
(5)
Robert
Faircloth,
Respondent’s crane operator; (6) Isidro Rodriguez, a
rigger for Respondent; (7) Troy Pierce, Respondent’s
Vice-President of Health, Safety and Environment;
and (8) Matthew Gardiner, Respondent’s proffered
expert. 2 Both parties timely submitted post-trial
briefs for the Court’s consideration.

1 Citation 1, 1a is the only remaining citation item from the
original Citation and Notification of Penalty. The remaining
citation items were withdrawn by Complainant via joint motion,
which was approved by the Court on August 31, 2018. (Exs. J-2,
J-3).
2 After voir dire, the Court determined Mr. Gardiner was only
brought in to proffer his interpretation of the cited standard. The
Court determined such testimony would not aid in its
determination of the issues, and Respondent decided not to
pursue Mr. Gardiner’s testimony on the technical matters of
ground pressure and standard operating procedures in the

App-16
After considering the record, the parties’
respective arguments, and the law, the Court finds
Respondent failed to provide adequate support for the
mobile crane pursuant to the manufacturer’s
specifications. Accordingly, the Citation and
Notification of Penalty, as amended, shall be affirmed.
II. Stipulations & Jurisdiction
The parties stipulated to jurisdictional and legal
matters, which were submitted by the parties as Joint
Exhibit 1. 3 Based on the parties’ stipulations, the
Court finds the Commission has jurisdiction over the
matter pursuant to Section 10(c) of the Act, 29 U.S.C.
§ 659(c). Further, the Court finds Respondent was an
employer engaged in a business and industry affecting
interstate commerce within the meaning of sections
3(3) and 3(5) of the Act, 29 U.S.C. § 652(5). Slingluff v.
OSHRC, 425 F.3d 861, 866-67 (10th Cir. 2005).
III. Factual Background
Better Built Enterprises (BBE) was hired by WalMart to install new air conditioning units on the roof
of its store in Corpus Christi, Texas. (Tr. 52). BBE
hired Respondent to lift the new air conditioning units
to the roof and remove the old ones. (Tr. 52). According
to Raymond Bucher, the lift portion of this project was
scheduled to take place after midnight over the course
of two nights. (Tr. 112; Ex. C-19). The scheduling was
designed to minimize customer impact and because,
on the second night, the crane had to be placed at the
industry. (Tr. 471-485). Accordingly, Respondent withdrew Mr.
Gardiner as an expert. (Tr. 485).
3 Subsequent references to the parties’ Joint Stipulations will
indicate the source and specific stipulation, e.g., “Stip. No.___”.

App-17
entrance to the store. (Tr. 112, 260; Ex. C-19). The
crane tipped over on the second night of lifting, just
outside the main entrance. (Tr. 59-60; Ex. C-7).
A. Pre-planning
Prior to conducting the lifts, Santos Gil from BBE
met with a representative from the HVAC contractor 4
and a representative from Respondent to walk around
the worksite, identify the air conditioning units to be
replaced, and assess what kind of crane would fit the
needs of the job and where it should be located for the
lifts. (Tr. 39-40). After the meeting, Respondent
created a preliminary lift plan, which showed where
the crane should be placed and the swing radius of the
boom during the individual lifts. (Tr. 43; Ex. C-19).
According to Gil, he reviewed the plan Respondent
sent to him and updated it with elements designed to
protect the general public. (Tr. 43). Specifically, he
lined out where orange fencing would be placed to
prevent the public, including customers and Wal-Mart
employees, from entering areas where they would be
exposed to the work occurring on the roof overhead.
According to Gil, neither he nor anyone from TNT
discussed or asked about the ground conditions at the
two locations where the crane would be operating.
(Tr. 40).
B. First Night
On the first night, Robert Faircloth and his crew
met at Respondent’s Corpus Christi yard and traveled
to Wal-Mart with haul trucks and a 265-ton Liehberr
mobile crane. (Tr. 69). According to Ray Bucher,
4 The HVAC contractor was A/C Tech; no one from that
company testified at trial.

App-18
Faircloth was spotting the crane on the backside of the
store, near the automotive department, when the rest
of the crew pulled up in the haul trucks with all the
necessary equipment. (Tr. 70). Bucher and the rest of
the crew followed suit by spotting the haul trucks in
the appropriate locations. (Tr. 70). Once the trucks
and the crane were in position, the crew started to set
up the crane for the lift. (Tr. 70).

In a nutshell, the crane is supported and balanced
with a combination of counterweights, outriggers, and
steel mats, each of which is roughly 6-foot by 6-foot
and weighs approximately 4000 pounds. (Tr. 76, 184).
The outriggers, which have “feet” or “floats” at the
bottom, extend outward from the mobile crane and are
set upon the mats, which distribute the load of the
crane over a larger surface area to prevent the foot of
the outrigger from sinking into the surface the crane
is parked on. (Tr. 86). The counterweights, as the
name implies, stabilize the crane by counteracting the
weight and force imposed by the boom and the load
being lifted.
According to Bucher, who was qualified to operate
the crane at issue, the crew started by setting the
crane on half outriggers without counterweights and
without the crane’s boom being scoped out. 5 (Tr. 7374). Then, Bucher testified, Faircloth used the crane
to offload the mats and set them beside the outriggers,
which were then fully spread out and set down on the
mats. (Tr. 73). This was confirmed by one of the
riggers, Isidro Rodriguez, who testified that Faircloth
5 Bucher referred to this set-up as running the crane “bare”.
(Tr. 88).

App-19
unloaded the mats with the crane, and all four were
placed under the outrigger feet prior to lifting the air
conditioning units. (Tr. 311).
Typically, prior to performing a lift, the crew
gathers to discuss the lift and the associated safety
issues to develop a Job Safety Analysis (JSA). (Tr.
305). Both Bucher and Rodriguez testified that they
did not have their customary Job Safety Analysis
(JSA) meeting prior to either of the lifts. (Tr. 70-71,
303). Instead, the riggers testified they discussed
safety issues on their own prior to starting. (Tr. 303304). Faircloth testified that everyone participated in
the JSA discussion, even though he was the only one
that signed it. (Tr. 202, 303-304; Ex. C-28).
Santos Gil, the daytime superintendent for BBE,
testified that he did not observe the crew setting up
the crane; instead, he just verified Faircloth’s
operating license and went home. (Tr. 46-47). Marty
Campbell, the nighttime superintendent, testified the
crane crew was parked near the automotive center
and was beginning the set-up process when he arrived.
(Tr. 57). Everyone from BBE and Respondent
remarked that the area where the crane was parked
was a combination of asphalt and concrete; no one
observed any adverse conditions, nor were they
informed of any hazards hidden below the surface.
(Tr. 52-53, 116, 206). During their discussions, nobody
from TNT or BBE brought up the issue of ground
conditions at either of the proposed lift locations. (Tr.
52).
At the end of the first night, the crew prepared for
the second night by equipping the crane with a jib,
which extends the reach of the crane. (Tr. 200, 312).

App-20
This was necessary because the location at the front of
the store was farther away from the location where the
air conditioning units were to be installed. (Tr. 312313).
C. Second Night
On the second night, the crew moved the crane
and trucks to the front side of the store. (Tr. 90). Once
it was parked, the crane was equipped with the jib,
fully loaded with 119,000 pounds of counterweights,
and sitting on half outriggers. (Tr. 88). Although the
crew did not conduct a job safety analysis, they all
understood that a forklift operator hired by BBE
would be setting down the mats for the outriggers.
(Tr. 90-91, 113, 201, 319). As the crew was setting up,
the forklift operator, who was accompanied by one of
Respondent’s riggers, set down two of the mats near
the outriggers. (Tr. 315). According to Bucher, the
forklift operator and the rigger went to the back of the
store to retrieve two additional mats, after which they
planned on setting them underneath the outrigger
feet. (Tr. 90-92). According to Rodriguez and Bucher,
the forklift operator only had capacity for two mats at
one time and had to make two trips in order to safely
deliver the mats. (Tr. 92, 315).
Faircloth, who either did not hear the forklift
operator or did not understand, became impatient and
decided to set the mats using the crane. 6 (Tr. 318-19).
6 Faircloth testified the forklift driver told him he could not set
the mats where they needed to be, so he decided to do it for
himself. (Tr. 201). This is inconsistent with the overwhelming
weight of the testimony and the fact that one of the rigging crew
members was assisting the forklift operator with the mat
retrieval. Accordingly, the Court disregards this testimony.

App-21
He swung the cab of the crane, which was fully loaded
with 119,000 pounds of counterweights and equipped
with the jib extension, to pick up the mats. (Tr. 110).
As the rear of the crane traveled over the top of the
rear outriggers, which were not equipped with mats,
the foot of one of the rear outriggers pierced the
concrete and caused the crane to tip backwards, where
it came to rest on the counterweights on top of the
asphalt and concrete. (Tr. 95; Exs. C-6, C-7). As it
started to tip, Faircloth exited the cab in an attempt
to get out before the crane rolled over and was struck
by the pill ball at the end of the crane’s cable and was
knocked to the ground. (Tr. 393-94).
Both Rodriguez and Bucher expressed surprise
that Faircloth decided to set the mats with the crane
configured as it was; in fact, both of them expected he
would set down the counterweights before swinging
the cab over half-extended outriggers without
adequate ground support. (Tr. 111, 320-21). Neither of
them understood why Faircloth was in such a hurry,
because it was before midnight, which was the
designated start time, and the process for removing
the weights and pinning back the jib would not have
put them behind schedule, nor, for that matter, would
waiting for the forklift operator to return. (Tr. 111112, 319, 408). Bucher, who had experience operating
this specific crane, said that Faircloth’s maneuver was
prohibited by both the crane manual and TNT policy. 7
(Tr. 104-105).

7 Faircloth testified he has previously set mats with the crane
in this configuration and was not aware it was against TNT policy
or the crane manual. (Tr. 185-188).

App-22
D. Recovery Efforts
Investigations

and

Subsequent

The recovery operation to upright the tipped
crane began shortly after midnight on the second
night. (Tr. 46). Respondent brought in two cranes that
were placed along either side of the tipped crane.
(Tr. 48; Ex. C-7 at 11). The recovery cranes were both
located on the asphalt portion of the parking lot and
their outriggers were placed on steel mats; neither of
them experienced any issues with the ground
conditions. (Tr. 116).
CSHOs Dovalina and Casas arrived at the
worksite the next morning. CSHO Dovalina testified
that they did not want to interfere with the recovery
efforts, so they briefly collected contact information
from Troy Pierce, took some photographs of the
accident scene, and made contact with BBE and the
HVAC subcontractor, A/C Tech. (Tr. 131; Ex. C-6).
Later on, CSHO Dovalina contacted Pierce to request
documents and schedule interviews with the
employees that were present for the tip-over; however,
due to his injuries, Faircloth was not available to be
interviewed. (Tr. 131, 253). Based on the information
she gathered and research performed on cranes,
CSHO Dovalina recommended and Complainant
issued the following Citation item.
IV. Discussion
A. Law Applicable to Alleged Violation of
Section 5(a)(2)
To establish a violation of an OSHA standard
pursuant to Section 5(a)(2) of the Act, Complainant
must establish: (1) the standard applies; (2) the terms
of the standard were violated; (3) employees were

App-23
exposed to the hazard covered by the standard; and
(4) the employer had actual or constructive knowledge
of the violation (i.e., the employer knew or, with the
exercise of reasonable diligence, could have known of
the violative condition). Atlantic Battery Co., 16 BNA
OSHC 2131, 2138 (No. 90-1747, 1994).
Complainant has the burden of establishing each
element by a preponderance of the evidence. See
Hartford Roofing Co., 17 BNA OSHC 1361 (No. 923855, 1995). “Preponderance of the evidence” has been
defined as:
The greater weight of the evidence, not
necessarily established by the greater
number of witnesses testifying to a fact but by
evidence that has the most convincing force;
superior evidentiary weight that, though not
sufficient to free the mind wholly from all
reasonable doubt, is still sufficient to incline
a fair and impartial mind to one side of the
issue rather than the other.
Black’s Law Dictionary, “Preponderance of the
Evidence” (10th ed. 2014) (emphasis added).
1.

Citation 1, Item 1a

Complainant alleged a serious violation of the Act
in Citation 1, Item 1 as follows:
29 CFR 1926.1402(b): The equipment was
assembled or used without ensuring that
ground conditions were firm, drained, and
graded to a sufficient extent so that, in
conjunction (if necessary) with the use of
supporting
materials,
the
equipment
manufacturer’s specifications for adequate

App-24
support and degree of level of the equipment
were met:
On or about March 23, 2017, at this
location, the employer did not ensure
that equipment was assembled and/or
operated on ground that could support
the mobile crane structure.
See Citation and Notification of Penalty at 6.
The cited standard provides:
The equipment must not be assembled or
used unless ground conditions are firm,
drained, and graded to a sufficient extent so
that, in conjunction (if necessary) with the
use of supporting materials, the equipment
manufacturer’s specifications for adequate
support and degree of level of the equipment
are met.
29 C.F.R. § 1926.1402(b).
a.

The Standard Applies 8

A standard must be read as a coherent whole and,
if possible, construed so that every word has some
operative effect. See Am. Fed’n of Gov’t Emps., Local
2782 v. FLRA, 803 F.2d 737, 740 (D.C. Cir. 1986)
(“[R]egulations are to be read as a whole, with ‘each
part or section … construed in connection with every
other part or section.’”) (internal citation omitted); E.
Smalis Painting Co., 22 BNA OSHC 1553, 1580
8 This question was also addressed by the Court in its Order on
Respondent’s Motion for Summary Judgment. As illustrated
herein, neither the analysis nor the Court’s conclusion have
changed.

App-25
(No. 94-1979, 2009) (same); Summit Contractors, Inc.,
23 BNA OSHC 1196, 1202-1203 (No. 05-0839, 2010)
(noting rule of statutory construction that every word
be given effect), aff’d per curiam, 442 F. App’x 570
(D.C. Cir. 2011) (unpublished).
According to 29 C.F.R. § 1926.1400, “This
standard applies to power-operated equipment, when
used in construction, that can hoist, lower and
horizontally move a suspended load. Such equipment
includes, but is not limited to .... mobile cranes ....” A
mobile crane, according to the standard’s definition
section, is “a lifting device incorporating a cable
suspended latticed boom or hydraulic telescopic boom
designed to be moved between operating locations by
transport over the road.’’ 29 C.F.R. § 1926.1401. Thus,
at a minimum, Subpart CC, which contains 29 C.F.R.
§ 1926.1402(b), is applicable to the work performed by
Respondent.
Although Subpart CC applies, Respondent
contends the specific subparagraph cited by
Complainant does not apply to it, as the crane
operator.
Rather,
Respondent
argues
the
requirements of § 1926.1402(b) are solely the province
of the controlling entity—in this case BBE.
Respondent is mistaken. When the regulations are
read as a whole, the plain language of the cited
standard, the surrounding standards, as well as the
preamble to the final rule, all compel the conclusion
Respondent, as operator, is obligated to comply with
29 C.F.R. § 1926.1402(b).
The cited standard begins with the following
clause: ‘‘The equipment must not be assembled or used
unless ....” Id. (emphasis added). In other words, the

App-26
prohibition is directed at the entity responsible for
using or assembling the crane, which, in most cases, is
the operator. In this case, Respondent was responsible
for both the assembly and operation of the crane. (Tr.
48-49, 180-81). Instead of focusing on the initial clause
prohibiting use or assembly of the crane, Respondent
overemphasizes the importance of the conditional
clause, which indicates when the crane can be
assembled or used: ‘‘unless ground conditions are firm,
drained, and graded to a sufficient extent ....” 29
C.F.R. § 1926.1402(b). The reason for this emphasis is
evident in subparagraph (c)(1), which states, “The
controlling entity must [e]nsure that ground
preparations necessary to meet the requirements of
paragraph (b) of this section are provided.” Id.
§ 1926.1402(c)(1) (emphasis added). Rather than
supporting Respondent’s argument, however, the
language of § 1402(c)(1) highlights a couple of flaws in
Respondent’s reasoning.
First, § 1402(c)(1) indicates that there are
requirements, plural, in paragraph (b). Among those
requirements are: (1) no assembly or use unless the
ground is firm, drained, and graded; and (2) that the
manufacturer’s specifications for adequate support
and degree of level are met. Id. Only Respondent is
responsible for the use and assembly of the crane and,
consequently, is likely the only entity capable and
qualified to determine whether adequate support and
degree of level are consistent with the crane
manufacturer’s specifications. Cranes and Derricks in
Construction, 75 Fed. Reg. 47906, at 47935 (Aug. 9,
2010).

App-27
Second, when paragraphs (b) and (c) are read
together, the respective obligations of operator and
controlling entity are rendered more definite. In the
case of the controlling entity, it is obliged to ensure
that ground preparations are provided to ensure the
ground is sufficiently firm, drained, and graded. In the
case of the operator, it is prohibited from operating or
assembling the crane until the ground conditions are
sufficient to meet the manufacturer’s specifications.
Faircloth was setting up and operating the crane as it
began to tip. Therefore, the assessment of whether
conditions were adequate should have been
determined prior to those engaging in those activities.
Because Faircloth was operating the crane, he needed
to ensure the manufacturer’s specifications for
adequate support and degree of level were met. See 75
Fed. Reg. at 47932 (‘‘[T]he use of equipment in
accordance
with
manufacturer
specifications
regarding degree of level would meet § 1926.1402(b)’s
requirement because the provision permits the use or
the
equipment
in
accordance
with
those
specifications.”).
In simpler terms, and as illustrated by other
sections of the standard, section 1402 establishes a
framework of cooperation between operator,
controlling entity, and property owner, and allocates
responsibility based on their respective spheres of
expertise
and anticipated knowledge. 9 This
understanding is reinforced by paragraph (e), which
states, “If the A/D director or the operator determines
that ground conditions do not meet the requirements
9 In some instances, the controlling entity and the property
owner may be one and the same. That is not the case here.

App-28
in paragraph (b) of this section, that person’s employer
must have a discussion with the controlling entity
regarding the ground preparations that are needed
....” 29 C.F.R. § 1926.1402(e). Not only does paragraph
(e) envision cooperation between the controlling entity
and the operator (or A/D director, if necessary), it
supports the plain reading of § 1402(b)(1) recounted
above. The operator, who would be most familiar with
whether ground conditions are sufficient, is required
to make the determination whether the ground
conditions meet the requirements of (b) before
operating or assembling. If, in the operator’s
estimation, those conditions are insufficient, he is not
only prohibited from using or assembling the crane,
but he (or his employer) is obligated to have a
discussion with the controlling entity about what
preparations are necessary to ensure the ground
conditions are made sufficient.
The preamble to the standard only reinforces the
plain language of the standard, especially the Court’s
reading of paragraph (e). It states:
Under [section 1926.1402], employers must
ensure that the surface on which a crane is
operating is sufficiently level and firm to
support the crane in accordance with the
manufacturer’s specifications. In addition,
§ 1926.1402 imposes specific duties on both
the entity responsible for the project (the
controlling entity) and the entity operating the
crane to ensure that the crane is adequately
supported. It places responsibility for
ensuring that the ground conditions are
adequate on the controlling entity, while also

App-29
making the employer operating the crane
responsible [sic] notifying the controlling
entity of any deficiency in the ground
conditions, and having the deficiency
corrected before operating the crane.
75 Fed. Reg. at 47912 (emphasis added). The Court
finds the foregoing passage could not be clearer in its
allocation of responsibility. The controlling entity
must ensure adequate ground conditions under
§ 1402(c), and the operator must ensure that such
conditions are, in fact adequate, before it can operate
or assemble the crane under § 1402(b). 10 This
explanation is mirrored by the plain language of the
standard. Accordingly, the Court finds the standard
applies.
b.

Respondent Violated the Terms
of the Standard

The basic facts about the crane tip-over are not in
dispute: (1) the crane was fully loaded with 119,000
As noted in footnote 3 of the Court Order on Respondent’s
Motion for Summary Judgment: The way a controlling entity
“ensures” proper ground conditions is a matter of context. The
preamble identifies two key problems with ground condition
assessment: “(1) Equipment is commonly brought on site by a
subcontractor, who typically has neither control over ground
conditions nor knowledge of hidden hazards, and (2) the entity
that usually does have such authority—the controlling entity—
may not have the expertise to know what changes are needed to
make the ground conditions suitable ….’’ 75 Fed. Reg. at 47931.
To address the concern inherent in (2), “the Committee developed
§ 1926.1402(c)”, which requires the input of the crane operator or
A/D director. Id.; see also 29 C.F.R. § 1926.1402(c). It is also
interesting that the term “controlling entity” is not used at all in
the preamble’s discussion of paragraph (b). See id. at 47932.
10

App-30
pounds of counterweights and jib extension; (2) the
outriggers were only half extended and were not
supported with steel mats; (3) the foot of the rear
outrigger punched through the concrete sidewalk in
front of the store; and (4) the crane tipped over.
Instead, the dispute over whether the standard was
violated has to do with what, exactly, constitutes a
violation of the standard. Complainant contends the
failure to use “supporting materials”, as required by
Liehberr, violated the ground conditions standard
because the manufacturer’s requirements for
adequate support were not met. Respondent, on the
other hand, argues the standard can only be violated
“if the ground conditions are insufficient to operate the
crane with the use of the crane’s supporting materials,
as recommended by the crane’s manufacturer.” Resp’t
Br. at 20.
Ultimately, Respondent contends Complainant is
improperly using a ground condition standard to cite
Respondent for its failure to use required supporting
materials. In support of this argument, Respondent
points out that, in addition to the standard at issue,
Complainant initially cited Respondent pursuant to
§ 1404(h)(2), which provides that the “size, amount,
condition and method of stacking the blocking must be
sufficient to sustain the loads and maintain stability.”
29 C.F.R. § 1926.1404(h)(2). Complainant ultimately
dismissed that citation item. Respondent argues it is
§ 1404(h)(2), not the cited ground condition standard,
that requires the use of supporting materials
sufficient to operate a crane in a safe manner. The
Court disagrees for the following reasons.

App-31
Regarding the applicability of § 1926.1404(h)(2),
the Court will not opine on why Complainant opted to
withdraw the citation item; however, it will discuss
why that provision is not applicable to the condition at
issue in this case. Since 2014, Complainant has
consistently distinguished the assembly/disassembly
(A/D) process from the process of equipment set-up.
See Compliance Directive for the Cranes and Derricks
in Construction Standard, CPL 02-01-057 at p. 20
(October 17, 2014). In its discussion of A/D, the
directive makes clear that sections 1926.1403 to
1926.1406 “do not apply to equipment set up.” Id.
(emphasis in original). Rather:
Set-up consists of procedures conducted to
deploy an assembled crane. For example, if
the equipment operator merely unfolds and
pins the boom of a fully assembled truck
crane it would be inappropriate to apply A/D
requirements. Another example of typical setup operations is the deploying of outriggers
and leveling the equipment. Note that
Subpart CC does have some requirements for
set-up, such as § 1926.1402(c)(2), requiring
that the user be informed of hazards beneath
the set-up area, and § 1926.1431(c), requiring
level ground conditions and use of any
outriggers or stabilizers. 11
Id. (emphasis added). According to Pierce, Faircloth
was in the set-up phase of operation when the accident
11 It should be noted that § 1926.1431(c) is not applicable to this
case, because it applies to personnel hoists. Further, the use of
the phrase “such as” indicates a non-exhaustive list of
representative set-up standards, including the one at issue.

App-32
occurred. (Tr. 422-23). Specifically, he stated, “The
phase of work he was in was setting up. Setting his
mats so that he could go to work lifting the air
conditioners.” (Tr. 423). When asked by the Court
whether that would be considered “assembly”, Pierce
stated, “No, sir, it would not be .... Setting up is
separate from assembly.” (Tr. 422). Because
Respondent, by its own admission, was in the process
of set-up, the Court rejects Respondent’s argument as
to the applicability of § 1404(h)(2).
The Court finds § 1402(b) requires more than
assuring the ground is firm, drained, and graded. As
noted above, under § 1402(c)(1), the controlling entity
is required to ensure preparations necessary to meet
“the requirements”· of paragraph (b) are provided. See
29 C.F.R. § 1926.1402(c)(1). That standard, as
described in the preamble, appears to combine both
the requirements of the crane and the conditions of the
ground under the umbrella term “requirements”:
[P]aragraph (c)(1) provides that the
controlling contractor is responsible for
“ensuring” that these ground conditions are
provided. In other words, if the controlling
contractor is not familiar with the crane’s
requirements or with the ground conditions
at the particular site, then it must make sure
that someone who is familiar with those
requirements and conditions provides what is
required by § 1926.1402(b).
75 Fed. Reg. at 47934. This makes sense because, in
reality, one would not be able to determine whether
the requirements of the standard were satisfied
without resort to an evaluation of the equipment

App-33
specifications for adequate support and degree of level,
because each crane has different requirements. The
manufacturer’s specifications, therefore, become the
baseline measurement of whether, under the
conditions, the ground is sufficiently firm, drained,
and graded.
The hang-up between Complainant and
Respondent is the clause: “in conjunction (if necessary)
with the use of supporting materials ....’’ 29 C.F.R.
§ 1926.1402(b). Complainant argues that, because the
concrete crumbled and the crane tipped over, the
ground was not sufficiently firm under the conditions
in which Faircloth set-up and operated the crane, i.e.,
half-outriggers with no mats and fully loaded with
counterweights and jib extension. Therefore, the
crane’s specifications for adequate support could not
have been met. Thus, Faircloth, as competent person
and operator, failed to appropriately determine that
mats were necessary for the conditions prior to using
the crane. Respondent, however, sees the disputed
clause not as a requirement, but as a hypothetical, so
to speak. In other words, Respondent argues the
ground conditions at Wal-Mart, on their own, were
sufficient had Faircloth used the steel mats; whether
he did or did not is irrelevant to whether Faircloth
made an appropriate assessment of whether the
ground conditions were sufficient. The standard
requires more than such hypothetical considerations;
rather, the final clause of the standard states, “so
that ... the equipment manufacturer’s specifications
for adequate support and degree of level of the
equipment are met. Id. (emphasis added). Faircloth
failed to make such a determination.

App-34
According
to
the
compliance
directive,
Complainant indicates it will issue a citation pursuant
to § 1402(b) if the CSHO determines the crane or other
hoisting equipment is out of level. CPL 02-01-057 at
p. 16-17. In other words, a violation of the standard
follows from a failure to ensure the specifications are
met, not that it is hypothetically the case that they will
be. Depending on the CSHO’s observations, this could
be because the ground is neither sufficiently firm, nor
drained, nor graded for the manner in which a
particular type of crane is being operated or being set
up, which includes a determination of whether
supporting materials were necessary. 12 See Piedmont
Mechanical, Inc., 24 BNA OSHC 1153, 2013
WL 5505282 at *12 (No. 11-2562, 2013) (ALJ Welsch
found failure to place pads under outriggers of crane
given the ground conditions presented constituted a
violation of 29 C.F.R. § 1926.1402(b)). 13
Bucher and Faircloth testified that determining
whether supporting materials were necessary is
dictated by the crane’s load charts (manufacturer’s
specifications). (Tr. 83, 163-64, 189). According to
Bucher, there is no load chart that allows you to use a
crane—fully loaded with counterweights, jib extended,
As indicated by many of Respondent’s witnesses, there are
some instances in which supporting materials may not be
necessary, such as placing mats with the crane when it is not
fully loaded with counterweights and jib extension while resting
on concrete.
12

13 This case was appealed to the Commission and remanded to
the ALJ on the separate issue of knowledge. See Piedmont
Mechanical, Inc., 24 BNA OSHC 1153. That issue was reaffirmed
by the ALJ in a separate opinion. 24 BNA OSHC 2144, 2014 WL
702321 at *3.

App-35
on half outriggers—to set support mats; however, he
noted there was a load chart available for setting mats
without the counterweights attached. (Tr. 88-89, 105106). This is consistent with the manual’s repeated
warnings against operating the crane without the use
of support pads, as well as an additional warning that
“the support force, due to the counterweight, can be
higher without a load than with a load.” (Ex. C-32 at
6). Faircloth was less certain in his knowledge of what
the crane manual load charts permitted. Over the
course of three pages of testimony, he went from
saying that the manual does not give specifics of the
procedure for setting the mats “rigged” up to stating
that the manual does show how to set the mats with
the crane “I would assume bare” to stating that the
load chart permits the operator to use the crane to set
the mats with half outriggers and a fully loaded crane.
(Tr. 186-189). Compared to the certainty repeatedly
expressed by Bucher, Faircloth responded to questions
about whether the crane’s configuration was
permitted by the manual with “I believe so’’, “I believe
it does”, “I’m sure it does”, and ‘‘I’m assuming ….”. (Tr.
187-189). In the estimation of his colleagues and
superiors that testified, Faircloth used the crane in a
configuration that caused it to tip over and/or crush
the concrete beneath the half-extended outrigger foot,
which they believe would not have happened if he
dropped the counterweights, removed the jib
extension, and/or permitted the forklift operator to
finish setting down the mats. Accordingly, the Court

App-36
finds Faircloth improperly determined (if at all) that
the manufacturer’s specifications were met. 14
In this case, the Court’s determination that the
manufacturer’s specifications for adequate support
and degree of level were not met is aided by the fact
the crane’s foot crushed through the concrete. It is
unclear whether this was the result of the crane
tipping and crushing through the concrete, or because
the foot crushed the concrete and caused the crane to
tip over, 15 but the conclusion is still the same: ground
conditions were not adequate for the configuration and
supporting materials were necessary. Thus, Faircloth
should not have used or set-up the crane in the
manner that he did, because he did not ensure that the
manufacturer’s specifications for adequate support
and degree of level were met. Accordingly, the Court
finds Respondent violated the terms of the standard.
c.

Complainant Was Not Required
to Prove the Existence of a
Hazard

Respondent also argues Complainant failed to
prove the existence of a hazard and, thus, cannot
establish the existence of a violation. Respondent is
mistaken both as to the law and as to the impact of the
facts. See Joseph J. Stolar Constr. Co., 9 BNA OSHC
2020, 2024 n.9 (No. 78-2528, 1981) (“The Commission
has held that, when a standard prescribes specific
While Faircloth said he had set his own mats in this
configuration and under similar conditions before, such an
assessment, so called, hardly complies with the requirements of
§ 1402(b).
14

15 Respondent brought up this concern during CSHO
Dovalina’s testimony. (Tr. 250).

App-37
means of enhancing employee safety, a hazard is
presumed to exist if the terms of the standard are
violated.”). When a standard prescribes specific means
of enhancing employee safety, a hazard is presumed to
exist if the terms of the standard are violated. Clifford
B. Hannay & Son, Inc., 6 BNA OSHC 1335, 1337
(No. 15983, 1978). Where a standard presumes a
hazard, however, the Secretary need only show the
employer violated the terms of the standard. Kaspar
Electroplating Corp., 16 BNA OSHC 1517 (No. 902866, 1993). See also Sanderson Farms, Inc. v. Perez,
811 F.3d. 730 (5th Cir. 2016) (“[H]azard is generally
presumed unless the regulation requires the Secretary
to prove it.”).
Therefore, according to the Commission, “Unless
the general standard incorporates a hazard as a
violative element, the proscribed condition or practice
is all that the Secretary must show; hazard is
presumed and is relevant only to whether the violation
constitutes a ‘serious’ one.” Bunge Corp. v. Sec’y of
Labor, 638 F.2d 831, 834 (5th Cir. 1981); see also
Pyramid Masonry Constr., 16 BNA OSHC 1461, 1464
(No. 91-600, 1993) (if standard presumes that hazard
exists when its terms are not met, Secretary need not
prove existence of hazard). The cited standard
proscribes certain conduct under certain conditions;
namely, it prohibits the use of a crane unless the
ground conditions are such that the manufacturer’s
specifications for adequate support and degree of level
are met. Failure to comply with those conditions
establishes the existence of a hazard. 16 Further, the
16 An example of a standard that does not presume the
existence of a hazard is 29 C.F.R. § 1910.94(d)(9)(v), which states,

App-38
fact the crane tipped over because those requirements
were not met is strong evidence that a hazard existed.
d.

Respondent Had Knowledge of
the Violation

Complainant asserts Respondent had knowledge
of the violation through its crane operator and
competent person, Faircloth. Respondent contends it
did not have knowledge of the violation because
Faircloth was not designated as a supervisor, did not
possess the traditional powers and duties of a
supervisor, and that his conduct was not foreseeable.
The Court finds the evidence shows Faircloth, as the
on-site competent person, was responsible for
ensuring the crew performed the work safely and in
conformity with the Act, which the Commission has
held is sufficient for characterizing an employee as a
supervisor. Further, the Court also finds his
knowledge is properly imputable to Respondent
because the rules/policies governing his conduct were
insufficient and there is no evidence that
audits/inspections were performed to identity
violations.
i.

The Crane Operator was a
Supervisor

The Commission has repeatedly held that “job
titles are not controlling and that the power to hire
and fire is not the sine qua non of supervisory
status ….” Rawson Contractors, Inc., 20 BNA OSHC
“Whenever there is a danger of splashing …. the employees so
engaged shall be required to wear … goggles or an effective face
shield.” See Anoplate Corp., 12 BNA OSHC 1678 (No. 80-4109,
1986) (emphasis added) (discussing 29 C.F.R. § 1910.94(d)(9)(v)).

App-39
1078 (No. 99-0018, 2003). Instead, the key question is
whether the individual in question “was vested with
some degree of authority over the other crew members
assigned to carry out the specific job involved.” Iowa
Southern Utilities Co., 5 BNA OSHC 1138 (No. 9295,
1977). This includes, amongst other things: the power
to order that necessary steps be taken to do the job
properly, ensuring that work will be done in a safe
manner, ensuring compliance with OSHA regulations,
and identifying and implementing corrective
measures to eliminate hazards. Rawson, 20 BNA
OSHC 1078, Iowa Southern, 5 BNA OSHC 1138; see
also Kerns Bros. Tree Svcs., 18 BNA OSHC 2064
(No. 96-1719, 2000) (crew leader responsible for seeing
work done safely and properly based on written work
order); Propellex Corp., 18 BNA OSHC 1677 (No. 960265, 1999) (finding persuasive fact that lead person
could not directly fire or discipline, but could report
violative behavior to her formal supervisor).
In Rawson, the Commission was persuaded by
and found “decisive significance” in the fact that the
foreman (not supervisor) was the company’s
designated competent person at the worksite,
meaning he was responsible for compliance with
OSHA regulations. Rawson, 20 BNA OSHC 1078. As
discussed above, the Commission also found other
indicia of authority, such as supervising the work
activities of his crew, taking necessary steps to
complete job assignments, and ensuring work was
being completed safely. Id. The Commission was not
persuaded by the company’s arguments the foreman
was not officially designated as a supervisor or that he
could not hire or fire employees. Id.

App-40
While Faircloth was not a “designated’’
supervisor, the Court finds he possessed many of the
indicia of authority discussed by the Commission.
Faircloth participated in a walkthrough of the
worksite with the representatives of the general
contractor and subcontractors to personally inspect
the areas where the crane would be set-up; supervised
the assembly of the crane; and completed the lift plan,
crane inspections, and field ticket on TNT’s behalf.
(Tr. 166-70; Ex. C-28, C-29, C-30, R-6, R-7). Equally
persuasive is the fact that both Bucher, who is a crane
operator, and Rodriguez both testified they recognized
Faircloth as their supervisor during the Wal-Mart
project and explained why. Specifically, Bucher
stated, “TNT instructs everybody that’s operating—
the crane operator, they are the supervisor, they are
in charge of that job. Whatever job they send you to,
it’s the responsibility of the crane operator. If there is
no safety or supervisor out, then, yes, it is the crane
operator’s job.” (Tr. 98-99). Likewise, Rodriguez
testified, “[H]e is not an actual supervisor, no. He’s an
opera—he’s the one controlling everything that
night …. I was working for him, yes, that night. I can
call him supervisor. I can call him an operator. But I’m
working under him.” (Tr. 306-308). Rodriguez and
Bucher also noted an operator can refer problematic
employees to dispatch or his immediate supervisor.
(Tr. 100, 308-309).
Like the companies in the cases discussed above,
Respondent places a lot of stock in the fact that
Faircloth was not designated as a supervisor, could
not hire or fire, and did not possess disciplinary
authority over other employees. See Resp’t Br. at 23.
Respondent also attempts to distinguish Rawson by

App-41
arguing that the person in that case was designated
as a “foreman” and that he was assigned to supervise
the work activities or his crew, whereas Faircloth was
neither a foreman, nor was he designated to supervise
the crane crew. Although Faircloth did not have an
official title of ·“foreman’’ or “manager’’ or
“supervisor’’, both Rodriguez and Bucher testified
convincingly that Faircloth supervised the set-up of
the crane and assessed the conditions of the worksite
to ensure that work would be done safely and complied
with the plan developed by each of the contractors.
The fact that they recognized Faircloth as their de
facto supervisor only solidifies the Court’s conclusion
that Faircloth was their supervisor for the purposes of
establishing knowledge. Likewise, Respondent’s own
policy defines a competent person as an “employee
capable of identifying existing and predictable
hazards in the surroundings or working conditions
that are unsanitary, hazardous, or dangerous to all
personnel and who has authorization to take prompt
corrective measures to eliminate them.’’ (Ex. R-27).
See Rawson, 20 BNA OSHC 1078 (discussing indicia
of authority, including duty to identity and take
prompt corrective measures to eliminate hazards).
ii.

The
Crane
Operator’s
Knowledge is Imputable to
Respondent under W.G. Yates

Because this case took place within the
boundaries of the Fifth Circuit, the Court is obliged to
apply Fifth Circuit precedent. See Farrens Tree
Surgeons, Inc., 15 BNA OSHC 1793, 1794-95 (No. 90998, 1992) (holding that Commission typically applies
precedent of circuit to which a case is “highly

App-42
probable” to be appealed, even though it may differ
from Commission precedent). The Fifth Circuit views
imputing the knowledge of a supervisor that engaged
in misconduct to be tantamount to imposing a strict
liability standard, “which the Act neither authorizes
nor intends.” W.G. Yates & Sons Constr. Co., 459 F.3d
604, 607 (5th Cir. 2006) (citing Horne Plumbing &
Heating Co. v. OSHRC, 528 F.2d 564, 568 (5th Cir.
1976)). Thus, the court held a “supervisor’s knowledge
of his own malfeasance is not imputable to the
employer where the employer’s safety policy, training,
and discipline are sufficient to make the supervisor’s
conduct in violation of the policy unforeseeable.” Id. at
608-609. See also Kerns Bros. Tree Svc., 18 BNA OSHC
2064 (measuring foreseeability in the Third Circuit by
analyzing a company’s training, safety policy, site
inspections, and discipline). Because knowledge is an
element of Complainant’s prima facie case, the Fifth
Circuit held it is Complainant’s burden to establish
the supervisor’s misconduct was foreseeable. Id.
The Court finds Complainant established
Faircloth’s actions were foreseeable on two separate
bases: (1) the rules governing the use of a crane to set
the steel mats were contradictory and insufficiently
descriptive, and (2) Respondent’s audit and
supervision policy were insufficient to identify and
correct problems such as this.
As to Respondent’s rules and safety policy, the
Court was convinced by the work rules governing the
use of outriggers and supporting materials and the
equivocal testimony of Respondent’s VP of HSE, Troy
Pierce, on the issue. Under the Standard Operating
Procedure for Cranes, there are two rules that appear

App-43
to be in contradiction regarding the use of supporting
materials. The SOP slates, “Steel plates, pads, or
timber mats shall be used under the outriggers of all
cranes no exceptions.” (Ex. R-19 at 1). Immediately
following, another rule states, ‘‘In the event that the
crane is on stable ground it is permissible to utilize the
crane to place plates and mats only.” (Ex. R-19 at 1).
Although the second provision appears to be an
exception to the very clear “no exception” rule
immediately preceding it, Pierce attempted to explain
the first rule applies to “lifting mode”, whereas the
second rule applies to “set-up mode”. (Tr. 421). Pierce
clarified this did not refer to any specific mode of the
crane; rather, that “set-up” and “lifting” were separate
phases of work. (Tr. 422-23). In either case, such a
distinction is not found in the Standard Operating
Procedures or anywhere else in the policies introduced
into evidence. For that matter, the Court finds Pierce’s
explanation of the difference only confused the matter
further.
The SOPs do not discuss whether an operator can
set his own mats when the crane is fully loaded with
counterweights, nor do they dictate whether or how
outriggers should be set up under such circumstances.
(Tr. 185, 420, 424-25). In fact, according to Faircloth,
he noted he had moved cranes rigged with the jib and
counterweights numerous times, set the mats with the
crane in that configuration before, and the operating
chart for the Liehberr crane has a chart for the crane
to operate in that configuration. (Tr. 186). At a
minimum, the Court finds Respondent’s rules were
insufficiently specific to govern the conduct
complained of in this case. If the head of health and
safety was not capable of clearly explaining the

App-44
distinction—not to mention he admitted it was poorly
written—it is certainly foreseeable an employee would
have similar difficulties understanding and
implementing the rule. See Pride Oil Well Serv., 15
BNA OSHC 1809, 1815 (No. 87-692) (“[T]he real
problem was that Pride had failed to formulate and
implement adequate work rules and training
programs to ensure that [the employee] had been
informed of the appropriate safety considerations.”)
Further, the Court finds there was a lack of
oversight and subsequent discipline with respect to
Respondent’s safety policy. Some employees testified
that audits and inspections occurred; however, there
was no documentation of these audits/inspections
even though documentation was requested by
Complainant. (Tr. 240-41). Thus, although lip service
was paid to the policy of conducting audits and
worksite inspections, the lack of any documentary
evidence of these audits/inspections is telling. (Tr. 125,
197, 240-241, 437-438; Ex. R-25). According to Pierce,
unless a member of management or a supervisor is at
the worksite, then daily and/or weekly inspections will
not be performed. (Tr. 441). In other words, the
implementation of the policy is contingent upon
whether Respondent opts to send a member of its
management team to a particular worksite. Further,
without
evidence
indicating
how
such
audits/inspections are conducted, their scope, or their
frequency, the Court is left to guess as to their efficacy
and whether the policy is executed as written. See, e.g.,
Dover Elevator Co., 16 BNAOSHC 1281, 1287 (No. 91862, 1993) (“In evaluating the adequacy of a safety
program, the substance of the program is
determinative rather than its formal aspects”). As a

App-45
testament to this fact, Faircloth testified he had never
been disciplined—nor told it was a violation of policy—
for using a fully loaded crane to set his own supporting
mats.
Given the lack of clearly defined rules governing
Faircloth’s conduct, the lack of evidence indicating
Respondent performed audits/inspections of its
worksites and the quality of those inspections, and
Faircloth’s own testimony that he had not been
disciplined or at least informed that utilizing the crane
in such a manner was a violation, the Court finds
Faircloth’s actions at the Wal-Mart worksite were
foreseeable. Accordingly, the Court finds Faircloth’s
knowledge is properly imputable to Respondent.
e.

Respondent’s Employees Were
Exposed to a Hazard

In order to establish exposure, Complainant must
show that “employees either while in the course of
their assigned working duties, their personal comfort
activities while on the job, or their normal means of
ingress-egress to their assigned workplaces, will be,
are, or have been in a zone of danger.” Gilles &
Cotting, Inc., 3 BNA OSHC 2002 (No. 504, 1976). In
this case, there is no serious dispute about any of the
crew members’ exposure. Both Bucher and Rodriguez
were in proximity to the crane as it tipped over.
(Tr. 237). Further, Faircloth was seriously injured
when he attempted to exit the crane as it was tipping
and was struck by the pill ball attached to the cable.
Accordingly, Complainant established employee
exposure.

App-46
f.

Respondent Failed to Establish
Affirmative
Defense
of
Unpreventable
Employee
Misconduct

Under Commission precedent, to establish
unpreventable employee misconduct, an employer
must prove by preponderance of the evidence that it
has: (a) established work rules designed to prevent the
violation, (b) adequately communicated those work
rules to its employees, (c) taken steps to discover
violations, and (d) effectively enforced the rules when
violations were discovered. See American Sterilizer
Co. (“AMSCO”), 18 BNA OSHC 1082, 1087 (No. 912494, 1997). As previously discussed with respect to
the question of whether Faircloth’s misconduct was
foreseeable, the Court finds Respondent failed to have
adequate work rules designed to prevent the violation
and failed to take steps to discover violations of its own
policy or the Act. As far as the evidence is concerned,
Respondent has a program that looks good on paper,
but is not carried out in practice. There is no evidence
of audits or inspections that took place, which would
identify how violations such as this are discovered and
remedied. Nor, for that matter, is there any evidence
of disciplinary actions coming from the Corpus Christi
yard, where this crew was stationed. Instead, there
are a handful of disciplinary actions from San Antonio
and one from Marshall, most of which deal with PPE
violations and motor vehicle issues. (Ex. R-30).
Respondent failed to prove the affirmative defense;
thus, Respondent’s affirmative defense is rejected.

App-47
g.

The Violation Was Serious

A violation is “serious”· if there was a substantial
probability that death or serious physical harm could
have resulted from the violative condition. 29 U.S.C.
§ 666(k). Complainant need not show there was a
substantial probability that an accident would
actually occur; he need only show if an accident
occurred, serious physical harm could result. Phelps
Dodge Corp. v. OSHRC, 725 F.2d 1237, 1240 (9th Cir.
1984). If the possible injury addressed by a regulation
is death or serious physical harm, a violation of the
regulation is serious. Mosser Construction, 23 BNA
OSHC 1044 (No. 08-0631, 2010); Dec-Tam Corp., 15
BNA OSHC 2072 (No. 88-0523, 1993).
The cited standard is designed to protect against
the possibility of a crane tipping over, which
unfortunately happened in this case. As noted in the
preamble to the final rule, “Crane tip-over incidents
caused by inadequate ground conditions are a
significant cause of injuries and fatalities.” 75 Fed.
Reg. at 47931. Faircloth’s permanently disabling
injury, which resulted from being struck by the pill
ball and knocked to the ground from the tipped-over
crane, illustrates this fact. Accordingly, the Court
finds the violation was serious.
h.

Penalty

In calculating appropriate penalties for affirmed
violations, Section 17(j) of the Act requires the
Commission give due consideration to four criteria:
(1) the size of the employer’s business, (2) the gravity
of the violation, (3) the good faith of the employer, and
(4) the employer’s prior history of violations. Gravity
is the primary consideration and is determined by the

App-48
number of employees exposed, the duration of the
exposure, the precautions taken against injury, and
the likelihood of an actual injury. J.A. Jones
Construction Co., 15 BNA OSHC 2201 (No. 87-2059,
1993). It is well established that the Commission and
its judges conduct de novo penalty determinations and
have full discretion to assess penalties based on the
facts of each case and the applicable statutory criteria.
Valdak Corp., 17 BNA OSHC 1135 (No. 93-0239,
1995); Allied Structural Steel, 2 BNA OSHC 1457
(No. 1681, 1975).
Respondent is a large employer, with over 1300
employees. (Tr. 238). This incident resulted in a
serious injury to one of its employees and exposed at
least two others to equally serious, if not lifethreatening, injury. The evidence shows Respondent
has been inspected in the recent past and was issued
serious citations for violations discovered in those
inspections. (Tr. 237). Therefore, the Court gives no
discount for size or history. Although Respondent
pointed to its partnership with OSHA in the ABC
OSHA Cooperative Safety program as justification for
discounted penalties, the Court is not bound by such
considerations as it determines penalties de novo. (Tr.
341-42). Given the seriousness of the injuries that
resulted from this violation and the potential for other
injuries to occur, the Court finds the penalty of
$12,675.00, as proposed by Complainant, to be
appropriate. A penalty of $12,675.00 will be assessed.
ORDER
The foregoing Decision constitutes the Findings of
Fact and Conclusions of Law in accordance with Rule
52(a) of the Federal Rules of Civil Procedure. Based

App-49
upon the foregoing Findings of Fact and Conclusions
of Law, it is ORDERED that:
1. Citation 1, Item 1a is AFFIRMED as a Serious
citation, and a penalty of $12,675.00 is ASSESSED.

SO ORDERED
[handwritten: signature]
Patrick B. Augustine
Judge, OSHRC

App-50
Appendix C
RELEVANT FEDERAL REGULATION
29 C.F.R. § 1926.1402 Ground conditions.
(a) Definitions.
(1) “Ground conditions” means the ability of the
ground to support the equipment (including slope,
compaction, and firmness).
(2) “Supporting materials” means blocking,
mats,
cribbing,
marsh
buggies
(in
marshes/wetlands),
or
similar
supporting
materials or devices.
(b) The equipment must not be assembled or used
unless ground conditions are firm, drained, and
graded to a sufficient extent so that, in conjunction (if
necessary) with the use of supporting materials, the
equipment manufacturer’s specifications for adequate
support and degree of level of the equipment are met.
The requirement for the ground to be drained does not
apply to marshes/wetlands.
(c) The controlling entity must:
(1) Ensure that ground preparations necessary
to meet the requirements in paragraph (b) of this
section are provided.
(2) Inform the user of the equipment and the
operator of the location of hazards beneath the
equipment set-up area (such as voids, tanks,
utilities) if those hazards are identified in
documents (such as site drawings, as-built
drawings, and soil analyses) that are in the
possession of the controlling entity (whether at

App-51
the site or off-site) or the hazards are otherwise
known to that controlling entity.
(d) If there is no controlling entity for the project, the
requirement in paragraph (c)(1) of this section must
be met by the employer that has authority at the site
to make or arrange for ground preparations needed to
meet paragraph (b) of this section.
(e) If the A/D director or the operator determines that
ground conditions do not meet the requirements in
paragraph (b) of this section, that person’s employer
must have a discussion with the controlling entity
regarding the ground preparations that are needed so
that, with the use of suitable supporting
materials/devices (if necessary), the requirements in
paragraph (b) of this section can be met.
(f) This section does not apply to cranes designed for
use on railroad tracks when used on railroad tracks
that are part of the general railroad system of
transportation that is regulated pursuant to the
Federal Railroad Administration under 49 CFR part
213 and that comply with applicable Federal Railroad
Administration requirements.

